           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Notification of Audit —                        Date:    April 11, 2006
           Contracted SAS 70 Review of the Delphi Financial
           Management System
           Project Number: 06F3001F000
  From:    Rebecca Leng                                             Reply to
                                                                    Attn. of:   JA-20
           Assistant Inspector General
            for Financial and Information Technology Audits
    To:    Larry Neff
           Deputy Chief Financial Officer, DOT


           The Department of Transportation (DOT) has been designated by the Office of
           Management and Budget (OMB) as a Center of Excellence to provide cross-
           agency accounting system services with its Delphi financial management system.
           OMB requires service organizations to provide client agencies with an
           independent audit report describing system controls. Therefore, the Office of
           Inspector General (OIG) initiated a contract audit of the Delphi financial
           management system based on management’s assertions of the controls placed into
           operation. The objective of the audit is to examine the computer controls over the
           information technology and data processing environment, as well as the input,
           processing, and output controls built into the Delphi system.

           Our independent contractor will render an opinion on the effectiveness of those
           controls for the 8 month period from October 1, 2005 through May 31, 2006. The
           final audit report will be issued by June 30, 2006. The independent contractor will
           also perform additional testing and prepare a follow-up audit letter covering the
           remainder of the fiscal year describing whether the control environment has
           significantly changed. The letter will be issued by September 30, 2006. This will
           enable all financial statement auditors for DOT and its client agencies to use the
           Delphi audit results for their FY 2006 Financial Statement audits.

           The audit will be conducted at DOT Headquarters in Washington DC, and the
           Mike Monroney Aeronautical Center in Oklahoma City, Oklahoma, by Clifton
           Gunderson, LLP, an independent external auditor subject to OIG oversight. The
                                                                               2


audit will be conducted in accordance with Standards established by the American
Institute of Certified Public Accountants and applicable Generally Accepted
Government Auditing Standards.

If you have questions, please call me at (202) 366-1496 or Ed Densmore, Program
Director, at (202) 366-4350.

                                       #

cc: Assistant Secretary for Budget and Programs/Chief Financial Officer, OST
    Acting Chief Information Officer, DOT
    Chief Information Officer, FAA
    Chief Financial Officer, FAA
    Director, MMAC
    Martin Gertel, M-1
    Anthony Williams, ABU-100
    Di Honey, AMB-1
